USE OF AN OPEN SYSTEMS APPROACH FOR WEAPON SYSTEMS


Report No. D-2000-149                          June 14, 2000




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Audit Followup and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
General, DoD, Home Page at: www.dodig.osd.mil.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
The identity of each writer and caller is fully protected.
                      Office of the Inspector General, DoD
Report No. D-2000-149                                                June 14, 2000
  (Project No. D1999-D000AE-0101.000)
  (Formally Project No. 9AE-0091.00)


         Use of an Open Systems Approach for Weapon Systems

                               Executive Summary

Introduction. This report discusses the extent that acquisition program managers
considered and used an open systems approach in the design and development of major
defense weapon systems. The Under Secretary of Defense for Acquisition,
Technology, and Logistics mandated the use of an open systems approach in the
acquisition process to reduce the cost of ownership of weapons systems while
increasing interoperability and useful life. The Under Secretary chartered an open
systems Joint Task Force (the Joint Task Force) in November 1994 to facilitate DoD
use and implementation of an open systems approach in weapon systems acquisition.

Objectives. The primary audit objective was to evaluate the extent that program
managers considered and used an open systems approach in weapons systems
development. We also reviewed the effectiveness of management controls applicable to
the audit objective.

Results. The Joint Task Force has worked diligently to implement the open system
approach for DoD weapons systems. However, the Joint Task Force needed increased
assistance from the Defense and Component acquisition executives, as well as program
managers, to implement the use of an open systems approach in the systems acquisition
process.

Of the 17 major Defense acquisition programs that gained approval to begin program
definition and risk reduction or to enter engineering and manufacturing development
between March 1996 and July 1999, 14 programs proceeded into the next acquisition
phase without program mangers clearly defining open system design objectives or
strategy for achieving the objectives. Specifically, users and program managers did not
include language concerning the required use of an open systems design in acquisition
planning documents. The following list of seven acquisition planning documents shows
the number of programs that did not include language concerning the required use of
open systems out of the number of programs that prepared the cited document.

          •   operational requirements document (6 of 17 programs),
          •   single acquisition management plan (2 of 12 programs),
          •   acquisition plan (3 of 5 programs),
          •   system engineering management plan (2 of 6 programs),
          •   request for proposal (9 of 17 programs),
          •   contract statement of work (8 of 15 programs), and
          •   test and evaluation master plan (11 of 17 programs)
As a result, DoD acquisition managers did not have assurance at program milestone
reviews that program managers required and stressed the importance of implementing
open system design objectives in acquisition strategies to weapon systems contractors
(finding A).

Detailed documentation reviews of 4 of the 17 major Defense acquisition program
offices showed that program managers for 3 of the 4 programs did not document a
means for determining the extent of design openness of systems, subsystems, and
components. Also, DoD guidance on open systems did not require program managers
to assess the impact of a given level of design openness on the long-term viability and
affordability of systems. Without a means to measure the progress and the impact of
implementing an open systems approach, acquisition decision makers can not readily
gauge how well program managers are achieving the advantages of using an open
systems design approach or assessing the susceptibility of a weapon systems design to
obsolescence or costly upgrades to counter foreign military threats (finding B).

See Appendix A for details on the management control program as it relates to controls
over program managers considering and using an open systems design approach in key
acquisition planning documentation. Recommendations in this report, if implemented,
will improve the process for defining and documenting open systems objectives in key
acquisition planning documentation and correct the material control weakness identified
in the report.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics enforce the requirement that program
managers consider and use open systems during the acquisition milestone review
process and that program manager progress in inserting open systems design
requirements in key acquisition planning documents is measured. We also recommend
that program managers be required to include open systems objectives in test and
evaluation master plans and to assess the impact of projected system design openness to
provide acquisition milestone decision makers assurance at acquisition milestone
reviews that program managers had stressed the importance of implementing open
systems objectives into acquisition strategies. Additionally, we recommend that the
Joint Task Force provide program managers with general templates for inserting open
systems design language in the key acquisition planning documents and provide
guidance to help program managers document the means for determining the extent of
system design openness.

Management Comments. The Director, Operational Test and Evaluation, agreed to
support the Under Secretary of Defense for Acquisition, Technology, and Logistics in
revising acquisition policy to require program managers to include open systems
objectives in test and evaluation master plans. The Army also agreed with the
recommendations in the report.

Audit Response. The comments from the Director, Operational Test and Evaluation,
were responsive. The Under Secretary of Defense for Acquisition, Technology, and
Logistics did not comment on the draft of this report. A discussion of management
comments is in the Findings section of the report, and the complete text is in the
Management Comments section. We request that the Under Secretary of Defense
provide comments to the recommendations in this final report by July 14, 2000.




                                           ii
Table of Contents

Executive Summary                                                           i

Introduction
     Background                                                             1
     Objectives                                                             3

Findings
     A. Addressing Use of Open Systems Objectives in the Weapon System
        Acquisition Process                                                 4
     B. Determining the Extent of System Design Openness                   16


Appendixes
     A. Audit Process
           Scope                                                           22
           Methodology                                                     23
           Management Control Program                                      23
           Summary of Prior Coverage                                       24
     B. Definitions of Open Systems Terms                                  25
     C. Public Law and Government Policy                                   28
     D. Open Systems Joint Task Force Education and Outreach Initiatives   29
     E. Inclusion of Open Systems Objectives in Acquisition Planning
        Documents                                                          31
     F. Report Distribution                                                34

Management Comments
     Director, Operational Test and Evaluation Comments                    37
     Assistant Secretary of the Army (Acquisition, Logistics, and
      Technology) Comments                                                 38
     Army Program Executive Office for Ground Combat and Support
       Systems Comments                                                    39
Background
    Open Systems Approach. This report discusses the extent that acquisition
    program managers considered and used an open systems approach in weapon
    systems development. An open systems approach to weapon system
    development is an acquisition reform initiative requiring program managers to
    implement open specifications for interfaces between systems, subsystems, and
    components. Industry standards boards (national and international) develop or
    adopt open specifications to accommodate insertion of new technologies into
    systems. An open system design for a weapon system is characterized by:

       •   well defined, widely used, preferably nonproprietary interfaces and
           protocols;

       •   use of interface standards developed or adapted by industry-recognized
           standards bodies.

       •   definition of all aspects of system interfaces to facilitate new or
           additional capabilities for a wide range of applications; and

       •   explicit provision for system expansion or upgrade through the
           incorporation of additional or higher performance elements with minimal
           negative impact on the existing system.

    DoD use of an open systems approach will reduce the cost of ownership of
    weapons systems, delay system obsolescence, and allow fielding superior
    warfighting capability more quickly. An open systems approach reduces
    weapon system cost through facilitating program manager use of widely
    accepted standard products from multiple suppliers in DoD weapon systems. If
    program managers define weapon system architecture by specifications and
    standards used in the private sector, DoD can leverage the benefits of the
    commercial market place, and take advantage of the competitive pressures that
    motivate commercial companies to improve products and reduce prices.
    Program managers can then have access to alternative sources for key
    subsystems and components to construct DoD weapon systems. The open
    systems approach could reduce the DoD investment early in the weapon system
    life cycle because some of the required systems or components may be available
    or under development without direct DoD investment. Also, program managers
    can competitively select production sources from multiple competitors.
    Additionally, an open systems approach delays system obsolescence by allowing
    program managers to incrementally insert technological improvements into
    existing or developing systems rather than having to make large-scale system
    redesigns or to develop new systems. Further, an open systems approach
    enables program managers to deliver weapons systems to warfighters more
    quickly as a result of reduced developmental effort. Other benefits of program
    managers using an open systems approach include:




                                         1
   •   greater system interoperability for more effective joint and allied war
       fighting,

   •   closer cooperation between commercial and military electronics
       industries, and

   •   better international competitiveness of the U.S. electronics industry.

Overall, DoD use of the open system approach should help in pursuing a
focused modernization effort to maintain a qualitative superiority in warfighting
capabilities, in meeting the combat forces needs, in controlling cost growth
increases, and in helping DoD to meet its goals and performance measures.
Appendix A provides details on DoD goals and performance measures in
response to the Government Performance and Results Act that are pertinent to
this report. Appendix B provides a listing of terms and definitions germane to
understanding program manager implementation of an open systems approach in
designing weapon systems architecture.

Public Law and Government Policy. Public law and Government acquisition
policy mandate that program managers consider and use an open systems
approach in the weapon system acquisition process. Program managers must
consider and use open systems both in developing new weapon systems and in
modifying existing, or legacy, systems. Appendix C provides details on
relevant public law and Government acquisition policy concerning the use of an
open systems approach.

Open Systems Joint Task Force. The Under Secretary of Defense for
Acquisition and Technology (now Under Secretary of Defense for Acquisition,
Technology, and Logistics) chartered an open systems Joint Task Force (the
Joint Task Force) in November 1994 to facilitate DoD use and implementation
of an open systems approach in weapon systems acquisition. Specifically, the
Under Secretary chartered the Joint Task Force to sponsor and accelerate the
adoption of open systems in weapon systems and subsystems electronics to
reduce life-cycle cost and facilitate effective weapon system intra- and
interoperability. In executing the Under Secretaries charter, the Joint Task
Force has promoted program managers’ implementation of open systems policy,
identified opportunities for implementing an open systems approach, developed
training and education programs, and coordinated the identification and selection
of open systems specifications and standards. Appendix D provides an
overview of the completed and ongoing initiatives of the Joint Task Force.
Although the original charter for the Joint Task Force expired in
November 1998, the Under Secretary provided funding to support the
continuation of the Joint Task Force’s efforts for an additional 3 years in
June 1998.




                                    2
Objectives
     The primary audit objective was to evaluate the extent that program managers
     considered and used an open systems approach in weapons systems
     development. We also evaluated the management controls related to the audit
     objective. Appendix A discusses the audit scope and methodology, as well as
     management controls and prior audit coverage.




                                        3
           A. Addressing Use of Open Systems
              Objectives in the Weapon System
              Acquisition Process
           The DoD acquisition community has not fully applied the use of open
           systems objectives in the acquisition planning and review process. Of
           the 17 major Defense acquisition programs that gained approval to begin
           program definition and risk reduction or to enter engineering and
           manufacturing development between March 1996 and July 1999,
           14 programs proceeded into the next acquisition phase without program
           managers clearly defining open system design objectives for the system
           and the strategy for achieving the objectives in key acquisition planning
           documents. The DoD and Component acquisition executives allowed
           this condition to occur because they did not enforce the requirement that
           program managers use an open systems design approach in key
           acquisition documents as part of the acquisition milestone review
           process. Without acquisition executive enforcement, program offices did
           not aggressively seek guidance and training in using an open systems
           approach for their programs. With respect to training, the Joint Task
           Force had emphasized providing open system guidance and training to a
           number of individual acquisition programs but had only provided general
           guidance to the broader acquisition community through the Defense
           Acquisition Deskbook, seminars, and publications. As a result, DoD
           acquisition decision makers did not have assurance at program milestone
           reviews that program managers required and stressed the importance of
           implementing open system design objectives in their acquisition
           strategies to weapon system contractors.

Open Systems Policy
    The Under Secretary of Defense for Acquisition and Technology (the Under
    Secretary) first mandated program manager use of an open systems approach in
    his November 29, 1994, memorandum, “Acquisition of Weapons Systems
    Electronics Using Open Systems Specifications and Standards.” The
    memorandum required DoD Components to use open systems specifications
    (electrical, mechanical, thermal) for acquisition of weapon systems electronics
    to the greatest extent practical in an effort to reduce life-cycle cost and facilitate
    effective weapon system intra- and inter-operability. In DoD Regulation
    5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs
    (MDAPS) and Major Automated Information Systems (MAIS) Acquisition
    Programs,” March 15, 1996, the Under Secretary expanded the requirement for
    use of an open systems approach in developing systems to all system elements
    (mechanical, electrical, and software). The Under Secretary provided additional
    mandatory policy to program office use of open systems design in Change 3,
    March 23, 1998, and Change 4, May 11, 1999, to DoD Regulation 5000.2-R.
    Change 3 added open systems to the essential elements that program managers
    must address in their acquisition strategies. Change 4 required program


                                          4
    managers to establish open systems objectives; to document their approach to
    specifying the level(s) of openness of systems, subsystems, and or components
    to be acquired; and to document the means for determining the extent of
    openness of systems, subsystems, and components.

    Recognizing the need for high-level management attention to program use of
    open systems, the Under Secretary of Defense for Acquisition, Technology, and
    Logistics issued the memorandum, “Open Systems Acquisition of Weapon
    Systems,” July 10, 1996, directing that DoD and Component acquisition
    executives ensure that program managers include open systems plans in the
    documentation provided to support acquisition milestone decisions. The
    memorandum further directed that the overarching integrated product teams
    supporting the acquisition executives include open systems planning as a specific
    item in their oversight and review discussions on acquisition programs.
    Appendix C provides more detailed information on DoD open systems policy as
    well as information on public law concerning the use of open systems.

Defining Open Systems Objectives
    We reviewed acquisition planning documents for 17 major Defense acquisition
    programs that gained approval to begin program definition and risk reduction
    (Milestone I), or to enter engineering and manufacturing development
    (Milestone II), between March 1996 and July 1999. DoD and Component
    acquisition executives allowed 14 of the 17 major Defense acquisition programs
    to proceed to the next acquisition phase without requiring program managers to
    clearly define the open system objectives for the systems or the strategy for
    achieving the objectives. Specifically, users and program managers did not
    include language concerning the required use of an open systems design in
    acquisition planning documents. The following list of seven acquisition
    planning documents shows the number of programs that did not include
    language concerning the required use of open systems out of the number of
    programs that prepared the cited document:
       •   operational requirements document (6 of 17 programs),

       •   single acquisition management plan (2 of 12 programs),

       •   acquisition plan (3 of 5 programs),

       •   system engineering management plan (2 of 6 programs),

       •   request for proposal (9 of 17 programs),

       •   contract statement of work (8 of 15 programs), and

       •   test and evaluation master plan (11 of 17 programs).

    Appendix E provides details on the inclusion of open system requirements in
    acquisition planning documents for the 17 acquisition programs reviewed and


                                        5
    indicates which programs were new weapon system acquisitions and which
    programs were upgrades to existing, or legacy, weapon systems. The Joint
    Task Force emphasized that the degree that program managers could implement
    an open systems design for legacy systems may be limited because of
    modifications to an existing weapon system design that may not be open.

Including Open Systems Objectives in Acquisition Planning
    Acquisition planning documents serve as a roadmap to program managers and
    contractors for program execution from program initiation through
    postproduction support. Therefore, the DoD acquisition community, in
    coordination with the Joint Chiefs of Staff and supporting organizations involved
    in the weapons systems requirements generation process, must include open
    systems requirements in acquisition planning documents to maximize DoD
    effectiveness in implementing an open systems approach for developing and
    acquiring weapon systems. The following discusses the general purpose of the
    seven acquisition planning documents that the Joint Task Force agreed should
    include requirements for an open systems design approach and provides the
    results of our review and examples of how program managers documented the
    required use of an open systems approach.

    •   Operational Requirements Document. The operational requirements
        document is a product of the requirements generation system. The
        operational requirements document is a formatted statement containing
        operational performance parameters for the proposed concept or system.
        Chairman of the Joint Chiefs of Staff Instruction 3170.01A, “Requirements
        Generation System,” August 10, 1999, requires that the operational
        requirements document contain the performance and related operational
        parameters as well as program affordability estimates a weapon system
        acquisition program must meet. The Instruction promotes program use of the
        open systems approach by having requirements and acquisition planners to
        include a description of the benefits of evolutionary acquisition in the
        operational requirements document to match projected threats.

        While users for 6 of the 17 programs did not include open systems related
        language in their operational requirements documents, the Operational
        Requirements Document for the National Missile Defense Program,
        March 10, 1997, clearly defined requirements for the program manager to
        use an open systems approach. Specifically, the operational requirements
        document required the program manager to comply with an established open
        systems architecture and to establish and enforce a coherent set of common
        open technical standards across missions and systems. Additionally, the
        operational requirements document stated that the program manager was to
        maximize the use of standard parts and components already in the military
        supply system. Further, the operational requirements document stated that
        the program manager must ensure standardization, interoperability, and
        commonality within the system to ensure interoperability with other systems
        and to reduce the cost of system ownership.



                                        6
•   Single Acquisition Management Plan. In his memorandum,
    “Reengineering the Acquisition Oversight and Review Process,” April 28,
    1995, the Under Secretary allowed program mangers to consolidate
    milestone documentation in a single acquisition management plan. The
    single acquisition management plan provides a concise, integrated
    description of the overall acquisition and program management strategy and
    provides a vehicle for obtaining the statutory and regulatory approvals
    required for a program manger to implement the acquisition program.
    Although the Under Secretary did not mandate a specified format for the
    single acquisition management plan, the plan normally includes a program
    summary, a mission description, the acquisition strategy, the engineering
    and technical approach, and the program support strategy. Program
    managers who use a single acquisition management plan in place of separate
    acquisition documents for the acquisition plan and the engineering
    management plan, should include specific open systems language in the
    acquisition strategy and systems engineering sections of the plan to
    document that the contractor will be required to use an open systems
    acquisition and management approach.

    Program managers for 2 of the 12 programs did not include open systems
    related language in their single acquisition management plans. However, the
    Air Force Space Based Infrared System Single Acquisition Management
    Plan, October 1, 1996, strongly emphasized the Air Force’s commitment to
    open systems in the engineering and manufacturing design of the system. In
    the single acquisition management plan, the program manager stated that he
    would maintain a systems engineering process over the entire program to
    include use of an open systems concept. Further, the program manager
    stated in the plan that he would add incentives to an open system approach
    by encouraging the contractor to implement an architecture that defined
    internal system interfaces by using open standards that industry had adapted.

•   Acquisition Plan. The Defense Federal Acquisition Regulation Supplement,
    Part 207, “Acquisition Planning,” October 1, 1999, requires program
    managers to prepare written acquisition plans for weapon system acquisitions
    when contract costs are expected to total $5 million or more. In the
    acquisition plan, the Supplement requires program managers to include
    information on acquisition background, objectives, and a plan of action for
    the development effort that addresses product descriptions, logistics
    considerations, budget and funding, and other program considerations. The
    program manager provides the acquisition plan to the contract administration
    organization to facilitate resource allocation and planning for evaluating and
    managing contractor risk. Program manager inclusion of open systems
    objectives in the acquisition plan is essential for ensuring that assigned
    contract administration organizations evaluate contractor implementation of
    an open systems approach in the design of the weapon system.

    Program managers for 3 of the 5 programs did not include open systems
    related language in their acquisition plans. The program manager for the


                                    7
    United States Marine Corps H-1 Upgrade Program issued an acquisition plan
    on September 27, 1996, that clearly documented the program manager’s
    plans for using an open systems approach. In the acquisition plan, the
    program manager specified that the contractor would use an open systems
    approach that entailed contractor use of commercial interface standards to
    ensure form, fit, and function interchangeability, both internal and external,
    to the components that comprise the cockpit upgrade. Further, the program
    manager stated that the contractor through the system design effort must
    allow for future modifications and system integration flexibility to reduce the
    overall lifecycle cost of the helicopter cockpit with particular emphasis on
    reducing system operations and support costs.

•   Systems Engineering Management Plan. The Defense Acquisition
    Deskbook Critical Process Assessment Tool, “Systems Engineering,”
    August 14, 1998, defines the systems engineering management plan as the
    program plan for conducting systems engineering. The Deskbook states that
    the program office may need the systems engineering management plan to
    understand the contractors system engineering process well enough to
    maintain insight into its progress. The program manager’s inclusion of open
    systems objectives in this document is important because the contractor
    needs to focus on design flexibility and open interface selection to adapt to
    technology evolution and enable system upgrades over time.

    Program managers for 2 of the 6 programs did not include open systems
    related language in their system engineering management plans. The Navy
    Theater Wide Theater Ballistic Missile Program Systems Engineering
    Management Plan, March 22, 1999, did include open systems related
    language. In the plan, the program manager stated that the program office
    engineering staff would ensure that the contractor used an open systems
    architecture to the maximum extent possible to simplify the contractor
    making modifications to the subsystems and to enhance interoperability with
    other theater missile defense and theater missile defense support systems.

•   Request for Proposal. The Federal Acquisition Regulation,
    Subpart 15.203, “Requests for Proposal,” October 1, 1999, requires
    contracting officers for negotiated acquisitions to use requests for proposals
    to communicate Government requirements to perspective contractors and to
    solicit contractor proposals. In three sections of the request for proposal,
    contracting officers can give contractors information needed to develop
    contract proposals that will effectively implement an open systems approach.
    The three sections are Section L, “Instructions, Conditions, and Notices to
    Offerors or Quoters;” Section M, “Evaluation Factors for Award;” and the
    statement of objectives. Through these proposal sections, the contracting
    officer can advise prospective contract offerors that they will be required to
    develop a system using an open systems approach and that their proposal
    must address an open systems concept if they want to be considered as a
    responsive offeror to the request for proposal.

    Program managers for 9 of the 17 programs did not include open systems
    related language in the request for proposal. An example of a request for


                                     8
proposal that included open systems related language is the engineering and
manufacturing development contract for the Air Force Global Broadcast
Satellite Program. The request for proposal gave offerors clear notice on
instructions and evaluation factors pertaining to using an open systems
approach in the design and development of the satellite.

    G   Section L of the request for proposal requires that offerors identify
        contractor efforts to ensure that use of open standards and open
        architectures will be a driving factor in the contractor’s system
        design approach. Section L also requires offerors to describe system
        segment in terms of functions and interfaces and show how open
        systems architectures and standards apply to the architecture.
        Further, Section L requires offerors to describe plans for evolving
        the proposed system architecture to meet system interim, threshold,
        and objective performance capabilities.
    G   Section M of the request for proposal identifies the factors that the
        contracting officer will consider in awarding the contract. Section M
        states that the contracting officer will consider the offeror’s use of an
        open systems design in the technical evaluation factor assessment
        used to make the decision to award the engineering and
        manufacturing development contract.

    G   Offerors use the statement of objectives to develop their proposed
        contract statement of work that supports and defines their proposed
        efforts. The statement of objectives states that the contractor should
        maximize use of commercial equipment and software, open systems,
        and use of open nonproprietary network and communications
        protocols and standards. Additionally, the statement of objectives
        states that the contractor should design the system architecture to
        accommodate evolutionary hardware and software changes to achieve
        future system requirements.

•   Contract Statement of Work. The Federal Acquisition Regulation,
    Subparts 15.406-1, “Uniform Contract Format,” and 15.406-2, “Part 1 -
    The Schedule,” October 1, 1995, require Agency solicitations for
    contracts to include a statement of work, or other description that defines
    the Government’s requirements. Program manager inclusion of open
    systems objectives in this document is necessary to ensure that the
    contractor uses an open systems design approach in the system’s design.
    Program managers can also use provisions in the contract statement of
    work, along with the contract data requirements list, to require the
    contractor to provide the program manager with information to identify
    the extent of system design openness.

    Program managers for 8 of the 15 programs did not include open
    systems related language in their contract statements of work. A positive
    example is the Army’s statement of work in the contract for the Guided
    Multiple Launch Rocket System that defined the required level of system
    openness as subsystem interfaces. The statement of work also required


                                  9
            that the contractor describe subsystem interfaces in interface control
            documents and to list and justify all proprietary [closed] interfaces,
            including proprietary extensions to open standards. Further, the
            statement of work required that the contractor identify, at systems design
            reviews, all configuration items which, as a result of the proposed open
            systems architecture design, are amenable to efficient technology and or
            supplier insertion at any stage during system engineering and
            manufacturing development and system production.

        •   Test and Evaluation Master Plan. DoD Regulation 5000.2-R requires
            that program managers prepare a test and evaluation master plan to
            provide a framework within which to generate detailed test and
            evaluation plans and identifies necessary developmental and operational
            test and evaluation activities for the weapon system. The program
            manager’s inclusion of open systems objectives in this document is
            needed to ensure that developmental and operational test organizations
            verify contractor insertion of an open systems design through planned
            testing of system components.

            Program managers for 11 of the 17 programs did not include open
            systems related language in their test and evaluation master plans, the
            Test and Evaluation Master Plan for the Army CH-47 Improved Cargo
            Helicopter, September 29, 1998, did include open systems related
            language. The plan stated that the contractor would select or develop all
            hardware and software for the helicopter cockpit within the concepts of
            an open systems design. Further, the plan established compatibility of
            system electronic architecture with the Joint Technical Architecture –
            Army as a critical technical parameter for the helicopter cockpit
            program. Accordingly, the plan specified that the contractor must
            successfully demonstrate compatibility with the Joint Technical
            Architecture – Army during production qualification tests. The Joint
            Technical Architecture – Army includes commercial standards to provide
            program managers with building codes for the development of all Army
            programs.

Use of Open Systems Objectives in the Acquisition Planning
  and Review Process
     Program managers did not routinely include open systems design objectives in
     acquisition planning and review because the Defense and Component acquisition
     executives did not enforce the requirement that program managers use an open
     systems design approach in key acquisition documents as part of the acquisition
     milestone review process. Without acquisition executive enforcement, program
     offices did not always aggressively seek guidance and training in using an open
     systems design approach for their programs. With respect to training, the Joint
     Task Force had emphasized providing detailed guidance and training to
     designated pilot programs and to those program managers that sought advice,



                                        10
while relying on the efforts of the acquisition executives and advisory guidance
in the Defense Acquisition Deskbook, conferences, and a web site to provide
guidance and training to the larger acquisition community.

Acquisition Milestone Review Process. The Defense and Component
acquisition executives had not implemented effective controls to enforce the
requirement that program managers use an open systems design approach in key
acquisition documents as part of the acquisition milestone review process.
Because the DoD and Component overarching integrated product teams
supporting the acquisition executives did not routinely include program manager
implementation of open systems in their reviews, program managers did not
always aggressively seek guidance and training in using an open systems
approach. To determine if overarching integrated product teams were
addressing the use of open systems during the oversight and review process, we
reviewed team reports for 12 of the 17 major Defense acquisition programs
included in our audit scope. In 11 of the 12 team reports, the teams did not
mention a discussion with program managers concerning the use of an open
systems design approach.

To remedy the above condition, the Under Secretary needs to establish
performance goals and metrics to measure program manager progress in
inserting open systems design requirements in key acquisition documents in
support of acquisition milestone reviews. The overarching integrated product
teams are in the best position to measure program manager performance against
established performance goals and metrics as part of the milestone review
process. An open systems performance goals and metrics would also ensure
that the overarching integrated product teams supporting the milestone decision
authorities include open systems planning as a specific item in their oversight
and review discussions on acquisition programs.

The Joint Task Force indicated that it understands the need for performance
goals and metrics relating to program manager compliance with open systems
requirements. As to whether program managers addressed open systems in key
acquisition planning documents, the Joint Task Force stated that any open
systems performance metric would be binary in nature (yes or no). In addition
to addressing open systems in the key seven acquisition planning documents
previously discussed, the Joint Task Force stated that program manager
completion of market research on the availability and affordability of
commercial interface standards and system architecture studies would provide
evidence that a program manager had used an open system approach.

Guidance and Training for Pilot Programs and Programs Seeking Advice.
The Joint Task Force has provided extensive guidance and training on
implementing an open systems design approach to the Navy AV-8B Aircraft
Open Systems Core Avionics and the Air Force’s F-15E Multipurpose Display
Processor program offices. The Principle Deputy Under Secretary of Defense
for Acquisition, Technology, and Logistics designated the two acquisition
programs as pilot programs for implementing an open systems approach on
February 15, 1996. Accordingly, the Joint Task Force worked directly with the
pilot program staffs in:


                                   11
       •   developing open systems strategies,

       •   applying open systems concepts to their programs, and

       •   providing funding to assist the programs offices in implementing an
           open systems approach.

The Joint Task Force also provided advice and assistance on an open systems
design approach to program office for another 26 acquisition programs through
collaboration with program office integrated product teams.

Guidance and Training for the General Acquisition Community. The Joint
Task Force and DoD Components provided advisory guidance to the acquisition
community on the use of an open systems design approach through the Defense
Acquisition Deskbook. As of January 31, 2000, the Defense Acquisition
Deskbook listed 304 documents referencing open systems. As discussed in
Appendix D, the Joint Task Force has also developed seminars, tutorials, and a
web site that program managers can access to obtain information on
implementing an open systems design approach. While available guidance
contains constructive information on implementing an open systems approach,
the Joint Task Force acknowledged that it could provide additional clarifying
guidance. Specifically, the Joint Task Force agreed that it could enhance the
understanding and effectiveness of program managers in implementing an open
systems strategy by providing guidance templates illustrating how program
managers can address open systems design requirements in key acquisition
planning documents and by providing open systems guidance tailored to each
acquisition phase.

        Guidance Templates. The Office of the Director, Joint Staff, in
coordination with the Joint Task Force, established a requirement for using an
open systems approach in universal guidance templates used by the requirements
community to prepare the operational requirements document. The Joint Task
Force also developed templates of open systems information for four other key
acquisition documents. The Joint Task Force provided the templates to program
managers requesting assistance.

               Operational Requirements Document Template. The Joint
Task Force provided the Director, Joint Staff, with suggested revisions on open
systems information included in the template for the operational requirements
document in Chairman of the Joint Chiefs of Staff Instruction 3170.01,
“Requirements Generation System,” June 13, 1997. On August 10, 1999, the
Director, Joint Staff, issued the revised Instruction, designated 3170.01A, which
included changes in response to the Joint Task Force suggested revisions. In the
revised template for the operational requirements document, the Director, Joint
Staff, included the following points relevant to an open systems approach:

       •   described the benefits of evolutionary acquisition for proposed
           system (if appropriate) in the general description of operational
           capability section,



                                    12
       •   included interoperability as an example of a system performance
           parameter in the capabilities required section and as a support
           objective in the program support section,

       •   specified that the system must comply with applicable information
           technology standards contained in the DoD Joint Technical
           Architecture, and

       •   specified that the system cost figure should be stated in terms of a
           threshold and objective to provide flexibility to allow for program
           evolution in the program affordability section.

The revised language in Instruction 3170.01A should increase the emphasis
weapon systems users and Service Chiefs of Staff give to open systems when
processing the operational requirements document. Also, it will help the
acquisition community effectively flow an open systems requirements into the
acquisition planning documents prepared based on the operational requirements
document.

               Templates for Other Acquisition Planning Documents. On
request, the Joint Task Force provided program office staffs with template
examples showing open systems language that can be used in the single
acquisition management plan, the systems engineering management plan, the
request for proposal, and the contract statement of work. However, the Joint
Task Force had not provided the broader acquisition community with the four
document template examples or prepared template examples showing open
systems language that can be used in preparing the acquisition plan and the test
and evaluation master plan.

The availability of templates of open systems language that program managers
can include in the six key acquisition planning documents would greatly assist
program offices in establishing appropriate open systems language in the
acquisition planning documents. Also, the Joint Task Force’s development and
inclusion of the document templates in the Defense Acquisition Deskbook would
be a timely response to a General Accounting Office report citing the need for
DoD to improve acquisition training. The General Accounting Office criticized
DoD training related to acquisition reform initiatives in GAO/NSIAD-99-206,
“Best Practices – DoD Training Can Do More to Help Weapon System
Programs Implement Best Practices,” August 1999. The report stated that
program officials reported that DoD training did not prepare them for
implementing revised practices. The General Accounting Office stated that the
DoD training typically provided only an awareness of the practices, not the
knowledge needed for actual implementation. The template examples for the six
key acquisition planning documents would provide program offices with a
practical supplement to conceptual training on implementing an open systems
design approach.




                                    13
Assurance That Open Systems Objectives Were Met
    As a result, DoD acquisition decision makers did not have assurance at program
    milestone reviews that program managers required and stressed the importance
    of open systems design objectives to weapon system contractors. Unless
    Defense and Component acquisition executives fully emphasize the importance
    of maximizing program manger and contractor use of an open systems design
    approach from the inception of acquisition programs, DoD will not fully realize
    the long-term benefits of using an open systems design approach to develop and
    acquire weapon system.

Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           a. Enforce the requirement for overarching integrated product
    teams within OSD and DoD components to assess open systems planning as
    a specific item for inclusion in the acquisition oversight and review process
    when preparing for system milestone reviews.

           b. Establish performance goals and metrics to measure program
    manager progress in inserting open systems design requirements in key
    acquisition planning documents.

    Management Comments. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics did not comment on the recommendation. We
    request that the Under Secretary of Defense provide comments to the final
    report.

    A.2. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics and the Director, Operational Test and
    Evaluation revise DoD Regulation 5000.2-R, “Mandatory Procedures for
    Major Defense Acquisition Programs (MDAPs) and Major Automated
    Information Systems (MAIS) Acquisition Programs,” May 11, 1999, to
    require program managers to include open systems objectives in test and
    evaluation master plans to emphasize to developmental testers the need to
    verify the contractor’s use of an open system design approach.

    Under Secretary of Defense for Acquisition, Technology, and Logistics
    Comments. The Under Secretary of Defense for Acquisition, Technology, and
    Logistics did not comment on the recommendation. We request that the Under
    Secretary of Defense provide comments to the final report.




                                      14
Director, Operational Test and Evaluation, Comments. The Director,
Operational Test and Evaluation, concurred, stating that he would support the
Under Secretary of Defense for Acquisition, Technology, and Logistics in
making the recommended revision to DoD Regulation 5000.2-R.

Audit Response. The Director, Operational Test and Evaluation, comments
were responsive to the recommendation. We request that the Under Secretary
coordinate with the Director, Operational Test and Evaluation, and provide
comments to the final report.

A.3. We recommend that the Director, Open Systems Joint Task Force,
include in the Defense Acquisition Deskbook suggested general template
language relating to program manager implementation of an open systems
acquisition strategy in the:
       a. single acquisition management plan,

       b. acquisition plan,

       c. systems engineering management plan,

       d. request for proposal,

       e. contract statement of work, and

       f. test and evaluation master plan.

Director, Open Systems Joint Task Force Comments. The Director, Open
Systems Joint Task Force, did not comment on the recommendation. We
request that the Director provide comments to the final report.

Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Comments. Although not required to comment, the Acting Deputy Assistant
Secretary for Plans, Programs, and Policy, Office of the Assistant Secretary of
the Army (Acquisition, Logistics, and Technology), agreed with the
recommendations in the draft report. Further, the Acting Deputy Assistant
Secretary stated that the availability of general template language will benefit
personnel who have the task of drafting the acquisition documents discussed in
the draft report.

Army Program Executive Office for Ground Combat and Support Systems
Comments. Although not required to comment, the Program Executive Officer
stated that he agreed with the draft report.




                                    15
           B. Determining the Extent of System
              Design Openness
           Detailed review of program documentation at 4 of the 17 major Defense
           acquisition program offices showed that program managers for 3 of the 4
           programs did not document a means for determining the extent of design
           openness of systems, subsystems, and components. Additionally,
           guidance on open systems did not require program managers to assess
           the impact of their planned level of design openness on the long-term
           viability and affordability of systems. These conditions occurred because
           the Joint Task Force did not:

              •   provide program managers, in general, with guidance on how to
                  document the means for determining the extent of system design
                  openness; and

              •   establish acquisition policy to recognize that determining the level
                  of openness of system design is most meaningful when combined
                  with program impact assessments.

           Without a means to measure the progress and the impact of
           implementing an open systems approach, acquisition decision makers can
           not readily gauge how well program managers are achieving the
           advantages of using an open system design approach and assess the
           susceptibility of a weapon system design to obsolescence or costly
           upgrade to counter foreign military threats.

Policy for Determining the Extent of System Design Openness
    The Under Secretary of Defense for Acquisition, Technology, and Logistics has
    recognized the need to determine the extent of openness that program managers
    achieve in weapon systems design. In Change 3 to DoD Regulation 5000.2-R,
    March 1998, the Under Secretary established the requirement that program
    managers document their approach for measuring the level of openness of
    systems, subsystems, and components to be acquired and devise an open
    systems strategy to achieve these requirements. In Change 4 to DoD Regulation
    5000.2-R, May 1999, the Under Secretary modified the requirement for
    measuring openness to require that program managers document their means for
    determining the extent of openness of system, subsystems, and components
    assuring conformance to open standards and at the specified levels of openness
    established in their open system objectives.




                                       16
Documenting the Means for Determining the Extent of
  Openness in Weapons Systems Design
    Program managers for 3 of the 4 program offices reviewed (the Army Guided
    Multiple Launch Rocket System, the Navy and Marine Corps UH-1 Helicopter
    Upgrade, and the Air Force Global Broadcast Service) did not document a
    means for determining the extent of design openness in systems, subsystems,
    and components. The program manager for the fourth program office (the Navy
    Tactical Tomahawk) requested that the prime contractor provide a percentage
    measurement of the level of design openness for one of the three segments of
    the program.

    Guided Multiple Launch Rocket System. Integrated product teams for the
    Guided Multiple Rocket System were unsure of how to document the means for
    determining the extent of systems, subsystems, and components design
    openness. The contract statement of work did require the contractor to provide
    the program office with information on subsystem interfaces that could provide
    a basis for determining the extent of an open system design. The contract
    statement of work established interface control documents as the means for the
    contractor to define subsystems interfaces and required the contractor to identify
    subsystem interfaces that were proprietary in nature. However, the contractor
    had not yet provided the program office with any interface control documents.
    The integrated product teams stated that the contractor would provide most
    interface control documents for approval during the time period after the
    preliminary design review in July 1999 and before the critical design review
    scheduled for August 2000.

    H-1 Helicopter Upgrade. The program office for the H-1 Helicopter Upgrade
    also was unsure of how to document the means for determining systems,
    subsystems, and components design openness. The program office stated that
    the concept of open systems was new and that not enough guidance was
    available for them to fully implement open systems requirements. The program
    office did implement an open systems acquisition strategy for the avionics
    systems but not for the propulsion system portion of the upgrade. The program
    office stated that it would be difficult to determine the extent of openness in the
    avionics design because the contractor was awarded a streamlined performance-
    based contract. The contract did not require the contractor to provide visibility
    over the interface control documents. The program office added that their
    integrated product teams would have some insight into the avionics system
    design, but the information would be insufficient to make a periodic
    determination on the extent of openness of the avionics system design.

    Accordingly, the program office stated that it would not be able to readily
    determine the extent of avionics system design openness although it believed that
    its acquisition strategy would encourage the contractor to use an open systems
    design approach. The program office cited two factors that would encourage
    the contractor to use an open systems approach: the contractor, as part of the
    acquisition strategy, will provide operational support for the first 10 years after
    the helicopter upgrade; and the contract statement of work required the

                                        17
    contractor to provide for an easy replacement of components as part of the
    system reliability requirement for mean-time-between-failure.

    While the acquisition strategy for the upgrade program should result in a system
    with some degree of openness, the program office has no assurance that the
    contractor will develop systems with the level of openness that the Government
    desires. Because the contractor may become concerned about continued
    responsibility for maintaining the system after the 10-year period, the contractor
    may not have adequate incentive to use open systems interfaces. Consequently,
    program offices should not rely on operational requirements and contracting
    strategies alone to achieve an open systems approach and should take contractual
    action to ensure that the program office can make periodic assessments of the
    level of openness of the system that contractors include in system designs.
    Tactical Tomahawk. The program office for the Tactical Tomahawk requested
    its prime contractor, Raytheon-Hughes, Tucson, Arizona, to provide a
    percentage determination of the level of design openness for one of the three
    segments of the program: the Tactical Tomahawk missile, the weapons control
    system, and the mission planning system. The prime contractor provided the
    program office with a percentage on the level of design openness for the missile
    segment through assessing the number of common and commercial interfaces as
    well as software transportability and modularity. The contractor determined that
    240 of the 258 electrical subsystem interfaces (93 percent) in the missile
    segment were open and that the remaining 18 subsystem interfaces were
    proprietary or closed. While the prime contractor provided some insight into
    the level of openness for the missile segment, the contractor did not address
    software and mechanical interfaces. Since July 1999, the program office has
    worked with the missile segment contractor to modify that contract with
    language that will address open systems requirements for electrical as well as
    software and mechanical interfaces.

    Global Broadcast System. The program office for the Global Broadcast System
    was unsure of how to implement the requirement for determining the extent of
    system subsystem, and component design openness.

    As program managers encourage contractors to implement open systems design
    in system interfaces through required program documentation, the program
    managers and contractors can use this documentation to determine the extent of
    openness at all levels, including between systems, subsystems, and components.

Providing Open Systems Regulation and Guidance for
  Acquisition Program Managers
    In addition to program managers not documenting a means for determining the
    extent of system design openness, DoD guidance did not require program
    managers to assess the impact of planned system design openness on long-term
    viability and affordability of systems. These conditions occurred because the
    Joint Task Force did not:


                                        18
   •   provide program managers, in general, with guidance on how to
       document the means for determining the extent of system design
       openness; or

   •   establish acquisition policy to recognize that determining the level of
       openness of system design is most meaningful when combined with
       program impact assessments.

Further, while executing systems engineering processes, three of the four
program offices visited did not address the extent of system design openness in
program design reviews.

Documenting the Means for Determining the Extent of Design Openness.
The Joint Task Force did not provide program managers, in general, with
guidance on how to document the means for determining the extent of system
design openness. While the Joint Task Force had formulated draft guidance for
program managers to use in determining the extent of system design openness in
June 1998, it had not finalized the guidance. The Joint Task Force stated that it
had not finalized the guidance because it was still validating the suggested
methods for determining the extent of system design openness. In addition, the
Joint Task Force stated that it was not convinced that documenting a means for
determining the level of system design openness added value unless the program
managers also assessed the impact of the planned level of openness on future
system long-term viability and affordability.

The Joint Task Force acknowledged that it needed to issue guidance in the
Defense Acquisition Deskbook for the program managers to use in determining
the extent of system design openness. To be helpful, the guidance needs to tell
program managers how to structure contract provisions to provide the program
office with visibility and influence over system design openness. Program
offices for the four programs stated that the prime contractor would be the best
source for obtaining a measurement of system design openness but that their
development contracts did not require the contractors to provide this
information. Also, the program offices stated that performance-based
development contracts offered little to no visibility into the contractor’s system
design configuration during the development phase of the system acquisition
process.

Assessing the Impact of Planned Level of System Openness. The Joint Task
Force stated that it was not convinced that determining the extent of system
design openness added value unless program managers also assessed the impact
of a given level of system openness on future system long-term viability and
affordability. Some system, subsystem, or component interfaces, particularly
those involving rapidly changing electronics, communications, or computer
technologies can be far more critical to a system’s continued viability than
slower changing system interfaces. For example, program managers for two
different systems could each project that 75 percent of their system’s interfaces
will be open, but the systems could have greatly different future long-term
viability and affordability depending on how fast technology or requirements
were expected to change for the remaining 25 percent of the systems’ interfaces


                                    19
     that were closed. The Joint Task Force indicated that program managers could
     provide acquisition decision makers with a much more meaningful program
     assessment if they provided an assessment of the probable impact of a planned
     level of systems openness on future system long-term viability and affordability
     along with a determination of the extent of system design openness.

     Addressing Open Systems Requirements as Part of the Systems Engineering
     Process. The Joint Task Force stated that open systems guidance should
     emphasize implementing open systems design as part of the systems engineering
     process. Specifically, the Joint Task Force stated that the design reviews such
     as the preliminary and critical design reviews, which program management and
     contractor staffs perform periodically during the systems engineering process
     would provide a forum where the program manager can address whether an
     open systems approach is being successfully applied. These two design reviews,
     as described in Military Standard 1521-B, “Technical Reviews and Audits for
     Systems, Equipment, and Computer Software,” June 4, 1985, provide an
     appropriate forum from which to review system subsystems and components
     interfaces. The preliminary design review is a formal technical review of the
     basic design approach for configuration items. The critical design review
     follows the preliminary design review and verifies whether detail design
     solutions have been achieved. Although program manager use of Military
     Standard 1521-B is no longer mandatory, DoD Regulation 5000.2-R emphasizes
     the importance of a structured design review process to demonstrate and confirm
     completion of required design accomplishments. Therefore, in order for
     program managers to determine the extent of system openness, they need to use
     whatever design reviews they have required and planned to make the
     determination.

     For the four program offices reviewed in detail, only one program manager
     addressed open systems in a design review. For that system, the Marine Corps
     H-1 Helicopter, the contractor addressed open systems during its preliminary
     design review. The program manager indicated that the contractor would also
     address open systems during the critical design review. If other program
     managers addressed open systems requirements during their structured design
     review processes, it could help the program managers emphasize, identify, and
     achieve a higher degree of design openness in the system development effort.

Benefits of Determining the Extent and Impact of System
  Design Openness
     Without documented means for program managers and contractors to measure
     progress and the impact of implementing an open systems approach, acquisition
     decision makers can not readily gauge how well program managers are
     achieving the advantages of using an open system design approach. When
     acquisition decision makers assess a system’s readiness for production, without
     considering the level of openness of a system, they cannot fully consider:




                                        20
        •   system life-cycle cost, which includes technology insertion;

        •   whether a system can accommodate economical technology insertion;
            and

        •   system affordability to keep pace with changing technologies.

    Given the long development cycle for most major DoD acquisition programs,
    systems, subsystems and components can become obsolete before systems reach
    production. DoD efforts to keep pace with technology may become cost
    prohibitive for some future systems if an open systems approach is not used in
    the design and could result in a decreased defense capability. Further, program
    managers having knowledge of obsolescence risk throughout the acquisition of a
    system, can effectively plan for cost-effective systems upgrades throughout the
    system’s life.

Recommendations
    B.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics revise DoD Regulation 5000.2-R, “Mandatory
    Procedures for Major Defense Acquisition Programs (MDAPs) and Major
    Automated Information Systems (MAIS) Acquisition Programs,” to require
    program managers to assess the impact of projected system design
    openness, including the readiness and cost impacts of any critical closed
    proprietary interfaces, as part of the acquisition strategy used to support
    acquisition milestone reviews.

    B.2. We recommend that the Director, Open Systems Joint Task Force,
    update the Defense Acquisition Deskbook to include guidance to help
    program manager document the means for determining the extent of system
    openness, to include possible performance measures for gauging progress in
    implementing an open systems design approach as well as examples of
    possible contract provisions and strategies that can be used to ensure that
    the program offices acquire the information needed from contractors to
    measure the extent of system design openness.

Management Comments Required
    The Under Secretary of Defense for Acquisition, Technology, and Logistics and
    his Director, Open Systems Joint Task Force did not comment on a draft of this
    report. We request that the Under Secretary of Defense and the Director, Open
    Systems Joint Task Force provide comments to the final report.




                                       21
Appendix A. Audit Process

Scope
    We conducted the audit from April 1999 through March 2000 and reviewed
    documentation dated from November 1994 through January 2000 at the Office
    of the Under Secretary of Defense for Acquisition, Technology, and Logistics,
    DoD Component Headquarters, and obtained documentation from 17 major
    Defense acquisition program offices. Specifically, we examined operational
    requirements documents, single acquisition management plans, acquisition
    plans, requests for proposals, contract statements of work, systems engineering
    management plans, and test and evaluation master plans. Also, we visited 4 of
    the 17 major Defense acquisition program offices to determine whether the
    program offices had documented a means for determining the extent of design
    openness of systems, subsystems, and components.

    DoD-wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goal, subordinate performance goal, and performance measures:

        •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
            future by pursuing a focused modernization effort that maintains U.S.
            qualitative superiority in key warfighting capabilities. Transform the
            force by exploiting the Revolution in Military Affairs, and reengineer the
            Department to achieve a 21st century infrastructure. (00-DoD-2)

        •   FY2000 Subordinate Performance Goal 2.4: Meet combat force’s
            needs smarter and faster, with products and services that work better and
            cost less, by improving the efficiency of DoD’s acquisition processes.
            (00-DoD-2.4)

        •   FY 2000 Performance Measure 2.4.1: Major Defense Acquisition
            Program (MDAP) Cost Growth (In percents). (00-DoD-2.4.1)

        •   FY 2000 Performance Measure 2.4.2: MDAP Cycle Time.
            (00-DoD-2.4.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following acquisition functional issue area
    objective and goal.

          Objective: Delivering Great Service. Goal: Deliver new major
    Defense systems to the users in 25 percent less time. (ACQ-1.1)



                                        22
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Defense weapons system acquisition high-risk area.

Methodology
    To evaluate program manager consideration and use of open systems in
    developing and acquiring weapon systems, we evaluated OSD and Military
    Department policies and procedures. We also examined program manager
    planning and execution of an open systems approach for their programs as well
    as the adequacy of DoD acquisition decision-maker reviews of program manager
    implementation of an open systems approach. We received technical assistance
    in examining program manager planning and execution of an open systems
    approach from electronics engineers in the Technical Assessment Division of the
    Office of the Assistant Inspector General for Audit.

    Auditing Standards. We conducted this program audit in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD, and accordingly included such
    tests of management controls as we deemed necessary.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and at Defense contractors. Further details are
    available on request.

Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD managers to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. In accordance with DoD
    Directive 5000.1, “Defense Acquisition,” March 15, 1996, and DoD
    Regulation 5000.2-R, acquisition managers are to use program cost, schedule,
    and performance parameters as control objectives to implement the requirements
    of DoD Directive 5010.38. Also, the Under Secretary of Defense for
    Acquisition, Technology, and Logistics issued the memorandum “Open Systems
    Acquisition of Weapon Systems,” July 10, 1996, directing that acquisition
    milestone decision authorities ensure that program managers include open
    systems plans in the documentation provided to support acquisition milestone
    decisions and that OSD overarching integrated product teams include open
    systems planning as a specific item in their oversight and review discussions on
    acquisition programs. Accordingly, we limited our review to management



                                       23
    controls directly related to program manager consideration and use of open
    systems in developing and

    acquiring weapon systems and to overarching integrated product teams including
    open systems planning as a specific item in their oversight and review
    discussions on acquisition programs.

    Adequacy of Management Controls. We identified a material management
    control weakness in the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics, as defined by DoD Instruction 5010.40,
    “Management Control (MC) Program Procedures,” August 26, 1996. The
    Office of the Under Secretary had not implemented effective controls to ensure
    that acquisition milestone decision authorities within OSD and the DoD
    Components enforced the Under Secretary’s direction for program managers to
    include open systems requirements in key acquisition planning documents as
    part of the acquisition milestone review process (finding A). Recommendations
    A.1. and A.2., if implemented, will correct the material management control
    weakness. A copy of the report will be provided to the senior official
    responsible for management controls in the Office of the Secretary of Defense.

    Adequacy of Management’s Self Evaluation. The Director, Open Systems
    Joint Task Force conducted a management control review that examined the
    adequacy of management controls to manage and oversee the use and
    expenditure of fiscal, personnel, and physical resources assigned to the Joint
    Task Force. The material management control weakness we identified occurred
    within the larger organizations of the DoD and Component acquisition
    executives, and was, thus, outside the scope of the self-evaluation the Director,
    Open Systems Joint Task Force performed.

Summary of Prior Coverage
    During the last 5 years, the General Accounting Office issued one report
    relating to program use of the open systems approach.

    General Accounting Office, National Security and International Affairs
    Division, Report 99-101, “Ballistic Missile Defense, More Common Standards
    and Components Could Result in Cost Savings,” May 21, 1999.




                                       24
Appendix B. Definitions of Open Systems Terms
   The DoD Open Systems Joint Task Force provided the following definitions that
   are germane to understanding the implementation of an open systems approach.

   Architecture. Architecture is the organizational structure of a system or
   component, the relationships, principles and guidelines governing design and
   evolution over time.

   Commercial Item. A commercial item is any item other than real property that
   is of a type customarily used for nongovernmental purposes and that has been
   sold to the general public or offered for sale to the general public.

   Closed Interfaces. Closed interfaces are privately controlled system and
   subsystem boundary descriptions for interfaces that are not disclosed to the
   public or are unique to a single supplier.

   Interface Standard. An interface standard specifies the physical or functional
   interface characteristics of systems, subsystems, equipment, assemblies,
   components, items or parts to permit interchangeability, interconnection,
   interoperability, compatibility, or communications.

   Interoperability. Interoperability is the ability of two or more systems or
   components to exchange data and use information.

   Joint Technical Architecture. The Joint Technical Architecture defines the
   DoD minimum set of rules governing the arrangement, interaction, and
   interdependence of the parts or elements, whose purpose is to ensure that
   systems conform to a specific set of requirements. It identifies system services,
   interfaces, standards, and the relationships.

   Level of Openness. The level of openness is the system, subsystem, or
   component level at which the interfaces conform to open standards. The
   contractor or supplier may control design, interfaces, repair, and
   implementation below the level of openness. The level of openness will affect
   the overall performance, life-cycle costs, long-term supportability, acquisition
   cycle time, interoperability, intra-operability, ease of technology insertion, and
   the extent of organic repair of a system.

   Modular. Modular is the design concept in which interchangeable units are
   used to create a functional end product.

   Module. A module is an interchangeable item that contains components. In
   computer programming, a program unit that is discrete and identifiable with
   respect to compiling, combining with other modules and loading is called a
   module.




                                       25
Nondevelopmental Item. A nondevelopmental item is any previously
developed item of supply used exclusively for governmental purposes by a
Federal agency, a State or local government, or a foreign government with
which the United States has a mutual defense cooperation agreement.

Open Specifications. Open specifications are public specifications maintained
by an open, public consensus process to accommodate new technologies over
time and consistent with international standards.

Open Standards. Open standards are widely accepted and supported standards
set by recognized standards organizations or the commercial market place. Open
standards support interoperability, portability, and scalability and are equally
available to the general public at no cost or with a moderate license fee.
Open System. An open system is a system that implements sufficient open
standards for interfaces, services, and supporting formats to enable properly
engineered components to be used across a wide range of systems with minimal
changes, to interoperate with other components on local and remote systems,
and to interact with users in a style that facilitates portability. An open system
is characterized by the following:

•   well defined, widely used, preferably nonproprietary interfaces and
    protocols;

•   use of standards which are developed and adopted by recognized standards
    bodies or the commercial market place;

•   definition of all aspects of system interfaces to facilitate new or additional
    systems capabilities for a wide range of applications; and

•   explicit provision for expansion or upgrading through the incorporation of
    additional or higher performance elements with minimal impact on the
    system.

Open Systems Approach. An open systems approach is an integrated business
and technical strategy to choose commercially supported specifications and
standards for selected system interfaces (external, internal, functional, and
physical), products, practices, and tools, and build systems based on modular
hardware and software design. Program selection of commercial specifications
and standards is based on:

•   those standards that industry standards bodies have adapted or are industry
    de facto standards (those successful in the market place);

•   market research that evaluates the short and long-term availability of
    products;

•   a disciplined systems engineering process that examines tradeoffs of
    performance;



                                     26
•   supportability and upgrade potential within defined cost constraint; and

•   allowance for continued access to technological innovation supported by
    many customers and a broad industrial base.

Open Systems Architecture. An open systems architecture is a system
architecture produced by an open systems approach and using open systems
specifications and standards to an appropriate level.

Open Systems Strategy. An open systems strategy focuses on fielding superior
warfighting capability more quickly and more affordably by using multiple
suppliers and commercially supported practices, products, specifications, and
standards, which are selected based on performance, cost, industry acceptance,
long-term availability and supportability, and upgrade potential.
Portability. Portability is the ease with which a system, component, data, or
user can be transferred from one hardware or software environment to another.

Proprietary Specifications. Proprietary specifications are exclusively owned
by a private individual or corporation under a trademark or patent, the use of
which would require a license.

Scalability. Scalability is the capability to adapt hardware or software to
accommodate changing workloads.

Specification. A specification is a document that prescribes, in a complete,
precise, verifiable manner, the requirements, design, behavior, or
characteristics of a system or system component.

Standard. A standard is a document that establishes uniform engineering and
technical requirements for processes, procedures, practices, and methods.
Standards may also establish requirements for selection, application, and design
criteria of material.

System Architecture. A system architecture is a description, including
graphics, of systems and interconnections providing for or supporting
warfighting functions. The system architecture defines the physical connection,
location, and identification of the key nodes, circuits, networks, and warfighting
platforms and specifies system and component performance parameters. It is
constructed to satisfy operational architecture requirements per standards
defined in the Joint Technical Architecture. The system architecture shows how
multiple systems within a subject area link and interoperate, and may describe
the internal construction or operations of particular systems within the
architecture.




                                    27
Appendix C. Public Law and Government Policy
    Public law and implementing Federal and Government acquisition policies
    mandate that program managers use an open systems approach in the weapon
    system acquisition process.

Public Law
    Section 12(d) of Public Law 104-113, “National Technology Transfer and
    Advancement Act of 1995,” March 7, 1996, requires that all Federal agencies
    and departments use technical standards that are developed or adopted by
    voluntary consensus standards bodies, using such technical standards as a means
    to carry out policy objectives or activities.

Government Policy
    Office of Management and Budget. The Office of Management and Budget
    issued Circular A-119, “Federal Participation in the Development and Use of
    Voluntary Consensus Standards and in Conformity Assessment Activities,”
    February 10, 1998. This Circular directs agencies to use voluntary consensus
    standards in lieu of government-unique standards except where inconsistent with
    law or otherwise impractical. The policies in the Circular are intended to
    reduce agency reliance on government-unique standards.

    Department of Defense. The Under Secretary of Defense for Acquisition and
    Technology mandated program manager use of an open systems approach in his
    November 29, 1994 memorandum, “Acquisition of Weapons Systems
    Electronics Using Open Systems Specifications and Standards.” The
    memorandum required acquisition program mangers to use open systems
    specifications (electrical, mechanical, thermal) for acquisition of weapon
    systems electronics to the greatest extent practical. The memorandum further
    stated that acquisition program managers should design, develop, and construct
    systems and subsystems as open systems during the acquisition and modification
    process to reduce life-cycle cost and facilitate effective weapon system intra and
    interoperability. On March 15, 1996, the Under Secretary expanded an open
    systems requirement to include all system elements (mechanical, electrical, and
    software) in developing weapon systems.




                                        28
Appendix D. Open Systems Joint Task Force
            Education and Outreach Initiatives
Since the Under Secretary of Defense for Acquisition, Technology, and Logistics
chartered the Joint Task Force in November 1994, it has made substantial efforts to
promote program manager use of an open systems approach in weapon system
acquisition. The Joint Task Force’s efforts have emphasized education and outreach to
the acquisition community.

Education
       The Joint Task Force developed educational products on the use of open systems
       and made these products available to the DoD acquisition workforce. The Joint
       Task Force educational products include a 3-hour computer-based open systems
       tutorial course available on CD-ROM, an open system implementation guide, a
       weapon system case study, an open systems engineering tutorial, and various
       papers, articles, and brochures. To broaden usage of the educational products,
       the Joint Task Force has made them available on an open systems web site.
       Additionally, the Joint Task Force provided the Defense Acquisition University
       input to update acquisition courses to better cover program manager use of an
       open system approach in developing and acquiring weapon systems.
       Specifically, the Joint Task Force collaborated with the Defense Acquisition
       University to modify segments of the following courses to include open systems
       concepts and principles:

          •   Acquisition Program Management Course Open Systems Program
              Management Elective
          •   Acquisition Program Management Open Systems Engineering Elective
          •   Communications 201and 301
          •   Contracting 301 Seminar
          •   Executive Program Management Course
          •   Software Acquisition Management 201and 301
          •   Systems Acquisition for Contracting Personnel
          •   Systems Acquisition Management 101 and 201
          •   Systems Engineering 201 and 301
          •   Test and Evaluation 301

Outreach to the Acquisition Community
       Open systems Joint Task Force outreach efforts have included performing
       assessments of program manager implementation of an open systems approach
       in weapon systems acquisition, participating in acquisition program integrated
       product teams, providing funding to open system projects within the DoD
       components, participating in conferences, providing briefings to industry and
       professional groups, and providing acquisition planning document templates and



                                         29
lessons learned regarding program manager implementation of the open system
approach to program managers requesting assistance. Details of these efforts
include:

•   Acquisition Program Assessments. In January 1996, the Joint Task Force
    examined the DoD acquisition programs to ensure that program managers
    were effectively implementing the directive on program manager use of an
    open systems approach in developing and acquiring weapon systems. Since
    January 1996, the Joint Task Force had performed and reported on
    assessments of open system implementation for five major Defense
    acquisition programs. An open systems Joint Task Force had also assessed
    program implementation of open systems for in five additional programs but
    did not prepare formal reports of its assessments.
•   Participation on Integrated Products Teams. The Joint Task Force has
    participated in more than 25 integrated product teams to enhance program
    manager use of open systems in weapon systems development. In FY 1999,
    the Joint Task Force participated on integrated product teams for the
    C-130 Upgrade, C-17 aircraft, Crusader, F-22, and Surface Combatant for
    21st Century.

•   Funding Open Systems Projects. In February 1996, the Joint Task Force
    provided funding to the two projects: the Navy’s AV-8B Aircraft Open
    Systems Core Avionics and the Air Force’s F-15E Multipurpose Display
    Processor that the Principal Deputy Under Secretary of Defense for
    Acquisition and Technology designated as pilot programs for implementing
    an open systems approach within DoD. The Joint Task Force also provided
    funding to assist the program managers for three additional programs to
    develop an open systems approach.

•   Conferences with Industry and Professional Groups. The Joint Task
    Force has participated in 21 conferences with industry and professional
    groups. The Joint Task Force participation included presenting papers on
    open systems architecture and setting up booths to distribute information on
    the open system initiative. Additionally, the Joint Task Force held
    numerous briefings with industry and professional societies on current DoD
    efforts to implement open systems and directed dialog with industry to
    encourage technical discussions on how program mangers use of open
    systems effects business opportunities with the DoD.

•   Templates and Lessons Learned. The Joint Task Force provided
    acquisition planning document templates to selected program offices to help
    acquisition staffs with the appropriate inclusion of open systems language in
    single acquisition management plans and system engineering management
    plans. Additionally, the Joint Task Force provided the DoD acquisition
    community with lessons learned on program implementation of an open
    systems approach. The lessons learned included case studies fully analyzing
    and documenting examples of open system technical and business strategies
    that acquisition program managers have used. The Joint Task Force also
    uses the lessons learned in preparing educational offerings.


                                    30
1
  Legacy acquisition program.
2
  New acquisition program.
3
  Totals include only those programs that were required to prepare each acquisition planning document.
4
  The weapon system user had not yet completed the operational requirements document but had defined system requirements in the
joint initial requirements document.
5
  DoD acquisition regulations do not require the program office to prepare a system engineering management plan. The program office
used a modified integrated program summary to plan systems engineering for the program.
6
  The program office prepared a system engineering management plan in addition to a single acquisition management plan.
7
  Not Applicable (N/A) to sole source contracts. Sections L and M of the request for proposal provide instructions and evaluation
criteria for other than sole source contracting actions.
8
  The program office did not provide a statement of objectives but used a statement of work to describe the work it needed the
contractor to perform.
9
  Not Included (N/I) in chart because the contract statement of work contains contractor proprietary and business sensitive data.
10
   The program office did not yet have an approved test and evaluation master plan but used an interim test and evaluation master plan
to plan test and evaluation for the program.
11
   The program office had not yet completed the initial draft version of the systems engineering management plan.
12
   N/A. The program manager did not prepare request for proposal because the contractor submitted an unsolicited proposal.

Acronyms:

ABL                          Airborne Laser
AIM 9-X                      Short Range Air-to-Air Missile
B-1                          B-1 Conventional Munitions Upgrade Program (Defense System Upgrade Program)
CH-60S                       Vertical Replacement Program
GBS                          Global Broadcast Service
ICH (CH-47F)                 Improved Cargo Helicopter
JASSM                        Joint Air-to-Surface Standoff Missile
JSF                          Joint Strike Fighter
MLRS                         Multiple Launch Rocket System
NATBMD                       Navy Area Theater Ballistic Missile Defense
NMD                          National Missile Defense
NPOESS                       National Polar-orbiting Operational Environment Satellite System
NTW                          Navy Theater Ballistic Missile Defense
SBIRS- High                  Space Based Infrared System Program High Component
SBIRS-Low                    Space Based Infrared System Program Low Component
USMC H-1                     United States Marine Corps Helicopter


                                                                 33
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Procurement
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
Director, Operational Test and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army Aviation and Missile Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Air Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Space and Missile Command

Other Defense Organizations
Director, Defense Logistics Agency
Defense Systems Management College




                                         34
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          35
Director, Operational Test and Evaluation,
Comments




                    37
Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) Comments




                    38
Army Program Executive Office for Ground
Combat and Support Systems Comments




                  39
40
41
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     Thomas F. Gimble
     Mary Lu Ugone
     John E. Meling
     Harold C. James
     Patrick E. Mchale
     Rodney D. Britt
     Donald E. Pierro
     Addie B. Frundt
     Renee L. Gaskin
     Shaun B. Jeffery
     Jaime A. Bobbio
     Wei Chang
     Cynthia B. Stull
     Bernice M. Lewis
